No. 20-1732
IN THE

Supreme Court of the @lniteb States
THOMAS BRYANT JR.,
Petitioner,
V.

UNITED STATES OF AMERICA,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

CERTIFICATE OF WORD COUNT

Pursuant to Rule 33.l(h) of the Rules of this Court, I certify that the
accompanying Brief of FAMM as Amicus Curiae in Support of Certiorari, which was
prepared using Century Schoolbook 12-point typeface, contains 5,941 words,
excluding the parts of the document that are exempted by Rule 33.l(d). This certificate
was prepared in reliance on the word-count function of the word processing system
(Microsoft Word for Office 365) used to prepare the document.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on July 15, 2021.

